                      U.S. Department of Agriculture
                         Office of Inspector General
                             Great Plains Region




           Audit Report

         Farm Service Agency
       Hurricane Relief Initiatives:
Livestock Indemnity and Feed Indemnity
               Programs




                           Report No. 03601-23-KC
                                    February 2009
                   UNITED STATES DEPARTMENT OF AGRICULTURE
                                    OFFICE OF INSPECTOR GENERAL

                                         Washington, D.C. 20250




DATE:          February 2, 2009

REPLY TO
ATTN OF:       03601-23-KC

TO:            Dennis Taitano
               Acting Administrator
               Farm Service Agency

ATTN:          T. Mike McCann
               Director
               Operations Review and Analysis Staff

FROM:          Robert W. Young             /s/
               Assistant Inspector General
                for Audit

SUBJECT:       Livestock Indemnity and Feed Indemnity Programs


This report presents the results of our review of the Farm Service Agency’s controls over
the Hurricane Relief Initiatives: Livestock Indemnity and Feed Indemnity Programs. Your
response to the official draft, dated January 16, 2009, is included in its entirety as exhibit B.
Excerpts of your response and the Office of Inspector General’s (OIG) position are
incorporated into the Findings and Recommendations section of the report.

Based on your response, we have reached management decisions on Recommendations 1, 2,
3, 6, 8, 12, and 13. Please follow your agency’s internal procedures in forwarding
documentation for final actions to the Office of the Chief Financial Officer. Management
decisions can be reached for Recommendations 4, 5, 7, 9, 10, 11, and 14 once you have
provided us with the additional information outlined in the report section, OIG Position.

We request a reply within 60 days describing the information requested in the OIG position
section of the report for the seven open recommendations. Please note that Departmental
Regulation 1720-1 requires management decision to be reached on all recommendations
within a maximum of 6 months from report issuance and final action to be taken within 1
year of the date of management decision.

We appreciate the courtesies and cooperation extended to us by members of your staff
during this audit.
Executive Summary
Farm Service Agency Hurricane Relief Initiatives: Livestock Indemnity and Feed
Indemnity Programs (Audit Report 03601-23-KC)

Results in Brief                   Following hurricanes Dennis, Katrina, Ophelia, Rita, and Wilma in
                                   2005, the U.S. Department of Agriculture’s Farm Service Agency
                                   (FSA), through its local, State, and national offices, worked diligently
                                   to provide almost $22.3 million in Livestock Indemnity Program (LIP)
                                   payments to 1,633 applicants who suffered significant storm-related
                                   livestock losses and over $4.8 million to 4,237 applicants for feed
                                   losses under the Feed Indemnity Program (FIP).

                                   The Office of Inspector General (OIG) initiated this audit to assess the
                                   effectiveness of FSA’s program delivery of LIP and FIP and the
                                   adequacy of its management controls to ensure program integrity. 1
                                   Specifically, we assessed FSA’s controls for processing and approving
                                   LIP and FIP applications to determine if they adequately protected the
                                   program against fraud, waste, and abuse. Overall, we found that while
                                   overseeing several disaster related programs with limited staff, FSA
                                   personnel successfully administered FIP and many aspects of LIP. We
                                   did not identify any material program or management control
                                   weaknesses from our review of FIP applications. However, we found
                                   that some LIP procedures, such as those related to third-party
                                   certifications, need improvement to strengthen the integrity of future
                                   programs.

                                   We reviewed about 200 approved LIP applications in three States
                                   (Louisiana, Mississippi, and Florida) and identified about $1.9 million
                                   in payments that were based on incomplete or unsupported third-party
                                   certifications, questionable livestock beginning inventories and claimed
                                   losses, and improper changes to Farm Operating Plans to increase the
                                   number of participants eligible for LIP payments.

                                   Ninety-seven of the approved LIP applications reviewed relied on
                                   third-party certifications. The third-party certification process requires
                                   applicants to provide written, signed, and dated statements from
                                   third-parties that include specific details, such as number and type of
                                   perished livestock, and provide verifiable evidence, such as veterinary
                                   or bank records that reasonably substantiate their beginning inventory.
                                   However, local FSA officials accepted incomplete certifications and
                                   approved program applications without required supporting
                                   documentation because, in part, beginning livestock inventory records
                                   were not available and/or the local officials were aware of the
1
  Due to the relative small average FIP payment of $1,142 per applicant, our review efforts focused primarily on the LIP where payments
averaged $13,648 per applicant.
USDA/OIG-A/03601-23-KC                                                                                                        Page i
                                   applicant’s livestock operations. Our audit showed that 53 applications
                                   with payments of about $922,000 relied on third-party certifications
                                   lacking necessary information, such as the number, type, and/or cause
                                   of death, or did not have verifiable documentation to clearly
                                   substantiate their claimed livestock inventories prior to the hurricanes
                                   (see exhibit A).

                                   We also identified improper LIP payments totaling over $944,000
                                   based on questionable receipts 2 for livestock medical supplies used to
                                   substantiate beginning inventories (prior to the hurricanes), livestock
                                   losses in excess of the beginning inventories, and improper changes to
                                   Farm Operating Plans that increased the number of participants eligible
                                   to receive LIP payments and increased their LIP payment (see exhibit
                                   A):

                                     •    Six applications received LIP benefits totaling over $427,000
                                          based on questionable support for their claimed beginning
                                          inventory. We noted that veterinarian medical supply receipts were
                                          out of sequence when compared to the date of the receipt and other
                                          receipts were just written statements. FSA requested that the Office
                                          of Inspector General-Investigations (OIG-I) investigate the claimed
                                          losses for two of the six applicants. As a result, OIG-I requested
                                          that we suspend our audit followup related to the six applicants.

                                     •    Three applications claimed losses in excess of the beginning
                                          inventories and received overpayments totaling about $117,000.
                                          OIG-I determined that the overpayments resulted, in part, from
                                          administrative errors made by the local FSA office and the
                                          applicants were not prosecuted.

                                     •    Two applications reviewed showed changes made to official
                                          program records after the disaster programs were announced, and,
                                          as a result, the applicants received questionable LIP payments
                                          totaling $400,000. Although two of the applicants had already
                                          received 2005 USDA benefits under other FSA programs, they
                                          were allowed to change their 2005 Farm Operating Plans to
                                          increase the number of persons eligible to receive LIP payments.
                                          The Louisiana FSA State Committee (STC) reviewed the changes
                                          made to previously approved program records and concurred with
                                          the county committee determinations for the two entities and the
                                          LIP payments made. We disagree with STC’s decisions and
                                          believe they should be reviewed by the Deputy Administrator for
                                          Farm Programs (DAFP) for a final determination.

2
 Local FSA personnel claimed they did not have the time or resources to perform a reconciliation of receipts provided by the applicants as
evidence supporting their beginning livestock inventories.
USDA/OIG-A/03601-23-KC                                                                                                          Page ii
                                     In addition, we determined that the 60-day disaster period may have
                                     been excessive, especially in Florida. Based on our review, we
                                     questioned whether livestock deaths from causes like stress and calving
                                     complications that occurred more than 30 days after Hurricane Wilma
                                     struck were directly related to the disaster. 3

                                     During the course of our review, we also identified a questionable LIP
                                     application submitted by an FSA county office employee’s spouse. We
                                     provided the Louisiana State FSA Office with documentation and
                                     information concerning the application, and it took appropriate
                                     administrative action against the employee.

                                     Our audit was conducted in conjunction with the President’s Council on
                                     Integrity and Efficiency (PCIE) as part of its examination of the Federal
                                     Government’s relief efforts in the aftermath of Hurricanes Katrina and
                                     Rita. As such, a copy of this report will be forwarded to the PCIE
                                     Homeland Security Working Group, which is coordinating Inspector
                                     General reviews of this important subject.

Recommendations
In Brief                             For future programs, FSA should provide:

                                     •    procedures with detailed guidance describing the required
                                          documentation for applicants and third-party certifiers to clearly
                                          substantiate claimed livestock losses; and

                                     •    specific instructions for local FSA office personnel to follow when
                                          applicants do not have verifiable evidence for establishing
                                          beginning inventory.

                                     FSA should also:

                                     •    instruct the Louisiana State FSA Office to coordinate with OIG-I on
                                          the six cases under review in Cameron Parish and determine the
                                          adequacy of documentation supporting beginning and ending
                                          inventories in Vermillion Parish;

                                     •    review the State Committee’s determination to approve the changes
                                          made to 2005 farm program records in Plaquemines Parish that
                                          increased program payments and request the DAFP to make a final
                                          determination;



3
  To be eligible for compensation under the LIP program, livestock must have perished in a disaster county during an applicable disaster period,
which was referenced on a county-by-county basis in exhibit 20 of FSA Handbook 4-DAP (Revision 1), “Livestock Programs” (Amendment 15,
dated April 13, 2006). Each disaster period in exhibit 20 extends for 60 days after the applicable hurricane made initial land fall.
USDA/OIG-A/03601-23-KC                                                                                                              Page iii
                   •   seek recovery of any unsupported payments from the producers in
                       Cameron, Vermillion, and Plaquemines Parishes associated with
                       these issues; and

                   •   review the facts and circumstances regarding the establishment of
                       loss claim periods to ensure they correlate eligible loss periods
                       more closely with local conditions related to the disaster.

Agency Response    FSA agreed with the recommendations in the report. We have
                   incorporated FSA’s response into the Findings and Recommendations
                   section of this report along with the OIG position. FSA’s response to
                   the draft report, dated January 16, 2009, is included in its entirety as
                   exhibit B.


OIG Position       Based on FSA’s response, we accept management decision on
                   Recommendations 1, 2, 3, 6, 8, 12, and 13. Management decisions can
                   be reached for Recommendations 4, 5, 7, 9, 10, 11, and 14 once FSA
                   has provided us with the additional information outlined in the OIG
                   Position sections of the report.




USDA/OIG-A/03601-23-KC                                                             Page iv
Abbreviations Used in This Report


AUSA                Assistant United States Attorney
CED                 County Executive Director
COC                 County Committee
DAFP                Deputy Administrator for Farm Programs
ECP                 Emergency Conservation Program
FIP                 Feed Indemnity Program
FSA                 Farm Service Agency
HIP                 Hurricane Indemnity Program
LIP                 Livestock Indemnity Program
LLC                 Limited Liability Corporation
NAP                 Non-Insured Crop Disaster Assistance Program
OIG                 Office of Inspector General
OIG-I               Office of Inspector General – Investigations
PCIE                President’s Council on Integrity and Efficiency
STC                 State Committee
TIP                 Tree Indemnity Program
USDA                U.S. Department of Agriculture




USDA/OIG-A/03601-23-KC                                                Page v
Table of Contents

Executive Summary ....................................................................................................................... i

Abbreviations Used in This Report ............................................................................................. v

Background and Objectives ......................................................................................................... 1

Findings and Recommendations.................................................................................................. 4

    Section 1            Unsupported LIP Payments ............................................................................ 4

        Finding 1                   Third-Party Certifications Did Not Support Claimed Losses ................ 4
                                    Recommendation 1 ................................................................................ 9
                                    Recommendation 2 ................................................................................ 9
                                    Recommendation 3 ................................................................................ 9
                                    Recommendation 4 .............................................................................. 10
        Finding 2                   Questionable Beginning Livestock Inventory Documentation ............ 10
                                    Recommendation 5 .............................................................................. 12
        Finding 3                   Claimed Livestock Losses Exceeded Beginning Inventory................. 12
                                    Recommendation 6 .............................................................................. 14
                                    Recommendation 7 .............................................................................. 14

    Section 2            Farm Operating Plans ................................................................................... 15

        Finding 4        Farm Operating Plans Were Improperly Changed to Increase
        Program Payments 15
                         Recommendation 8 .............................................................................. 19
                         Recommendation 9 .............................................................................. 19
                         Recommendation 10 ............................................................................ 19
                         Recommendation 11 ............................................................................ 20

    Section 3            Program Improvement .................................................................................. 21

        Finding 5           Excessive Timeframe Allowed Claims for Livestock Losses Not
        Directly Related to the Disaster .......................................................................................... 21
                            Recommendation 12 ............................................................................ 22
                            Recommendation 13 ............................................................................ 23
                            Recommendation 14 ............................................................................ 23

Scope and Methodology.............................................................................................................. 25

Exhibit A – Summary of Monetary Results ............................................................................. 27
Exhibit B – Agency Response..................................................................................................... 28

USDA/OIG-A/03601-23-KC                                                                                                         Page vi
Background and Objectives
Background                           As part of the U.S. Department of Agriculture (USDA), the Farm
                                     Service Agency (FSA) assists producers who suffered losses of
                                     livestock and feed due to natural disasters, such as hurricanes. In 2005,
                                     Hurricanes Katrina, Ophelia, Rita, Dennis, and Wilma (“the
                                     2005 hurricanes”) struck the Atlantic and Gulf Coast regions.
                                     Agricultural producers in these States suffered significant livestock
                                     deaths as a result of the storms. As of March 1, 2006, FSA reported
                                     nearly 6.5 million eligible livestock deaths in the affected States.

                                     In response to the unprecedented damages caused by the hurricanes,
                                     USDA assembled a $4.5 billion aid package to assist producers and
                                     rural communities in the recovery process. As part of this package, in
                                     October 2005, the Secretary established four hurricane disaster
                                     programs administered by FSA using $250 million in Section 32 funds.
                                     In the event of unusual and adverse market conditions, such as those
                                     resulting from a natural disaster, Section 32 of the Agricultural
                                     Adjustment Act of 1935 grants authority to the Secretary to reestablish
                                     farmers’ purchasing power by providing funds that will help them
                                     return to their normal production rates.

                                     We reviewed two of the four hurricane disaster programs established
                                     by the Secretary: the 2005 Hurricanes Livestock Indemnity Program
                                     (LIP) and the Feed Indemnity Program (FIP). 4 LIP provided payments
                                     to eligible livestock owners and contract growers 5 who lost livestock
                                     due to an applicable 2005 hurricane. FIP provided producers the
                                     opportunity to self-certify to livestock inventories prior to the disaster
                                     as a basis for compensating their feed losses or increased feed costs.
                                     FSA accepted applications for the programs from May 17, 2006,
                                     through September 29, 2006.

                                     FSA distributed almost $22.3 million in LIP benefits to
                                     1,633 applicants and over $4.8 million in FIP benefits to
                                     4,237 applicants. Presidential and Secretarial disaster declarations made
                                     261 counties in Alabama, Florida, Louisiana, Mississippi,
                                     North Carolina, and Texas eligible for both programs. Hurricanes
                                     Katrina and Rita especially devastated Louisiana’s livestock producers
                                     resulting in a little over half, or 845, of the applicants receiving about
                                     85 percent, or approximately $19 million of the $22.3 million in LIP
                                     benefits disbursed by FSA.

4
  FSA also administered the Hurricane Indemnity Program (HIP) and the Tree Indemnity Program (TIP) as its part of the Government’s hurricane
relief effort. OIG has also conducted reviews of these two related programs under Audit Nos. 03601-13-At and 50601-15-At.
5
  The term “contract grower” for LIP generally means a person, other than the livestock owner, who possessed an independent financial interest
in the eligible livestock or products derived from such livestock, as defined and limited by the terms and conditions of a contractual written
agreement with the livestock owner on the day the livestock perished.

USDA/OIG-A/03601-23-KC                                                                                                            Page 1
                                      To be eligible for LIP and/or FIP benefits, a producer must have been
                                      an owner or contract grower in possession of eligible livestock on the
                                      day of the disaster or, in the case of LIP, when the livestock perished.
                                      Eligible livestock for both programs included beefalo, beef cattle,
                                      buffalo, dairy cattle, deer, equine, goats, sheep, and swine. (LIP also
                                      included poultry and egg-laying hens.) The livestock must have been
                                      located in an eligible disaster county, and for LIP, the livestock must
                                      have perished as a direct result of an applicable hurricane during a
                                      designated 60-day disaster period. In addition, for both programs, all
                                      livestock must have been maintained for commercial use as part of a
                                      farming operation on the day the livestock perished.

                                      FSA required producers interested in receiving LIP or FIP benefits to
                                      file a number of documents to assist county personnel in their eligibility
                                      determinations. Producers completed an automated “2005 Hurricane
                                      Disaster Programs Application,” form FSA-573, at the FSA office
                                      serving the county where the livestock was physically located at the
                                      time of the disaster or when the livestock perished. If they did not
                                      already have one on file, applicants also completed a Farm Operating
                                      Plan, which provided the basis for a “person” determination for
                                      payment limitation purposes for program year 2005. 6 An $80,000
                                      payment limitation applied to each “person” eligible to receive LIP or
                                      FIP benefits. Applicants already participating in other 2005 FSA
                                      programs were not allowed to change their “person” determination
                                      when applying for LIP or FIP.

                                      As a means of ensuring that applicants claimed reasonable livestock
                                      losses for LIP, FSA’s Livestock Programs handbook (4-DAP (Rev.1))
                                      required applicants to also provide verifiable proof of loss. 7 If
                                      documentation of this nature was not available, applicants could
                                      support their losses through a third-party certification process.
                                      Third-party certifiers were typically neighbors, hired hands,
                                      veterinarians, or other individuals with first-hand knowledge of an
                                      applicant’s livestock. They certified to essential eligibility information,
                                      including the kind and number of livestock that perished as a result of
                                      an applicable hurricane. Certifiers also provided specific details
                                      describing how they learned of the livestock deaths. 8


6
   A "person" for payment limitation purposes may be many things, including an individual; a limited liability partnership; a limited liability
company; a corporation; a joint stock company; an association; a limited stock company; a limited partnership; an irrevocable trust; a revocable
trust together with the grantor of the trust; an estate; a charitable organization; and a State, political subdivision, or agency thereof. For an
individual or entity to be considered a separate "person," the individual or entity must have a separate and distinct interest in the land or crop
involved, exercise separate responsibility for this interest, and maintain funds or accounts separate from that of any other individual or entity for
this interest.
7
  FSA Handbook 4-DAP (Revision 1), "Livestock Programs,” subparagraph 451 D “Proof of Death” (Amendment 15, dated April 13, 2006). The
Livestock Programs handbook here and throughout this report refers to FSA Handbook 4-DAP (Revision 1) and its amendments.
8
  FSA Handbook 4-DAP (Revision 1), “Livestock Programs,” subparagraph 451 E “Third Party Certifications” (Amendment 18, dated
May 23, 2006).

USDA/OIG-A/03601-23-KC                                                                                                                   Page 2
                                In order for them to use a third-party certification as support for LIP
                                livestock losses, FSA also required applicants to provide verifiable
                                proof to reasonably substantiate their beginning inventory or the
                                number of livestock owned prior to the hurricanes. 9 Proof of beginning
                                livestock inventories was to assist FSA in guarding against program
                                abuse by collecting inventory evidence from the applicant during the
                                application process so it was available for spot check. Acceptable
                                inventory evidence included veterinary records, tax inventory records,
                                sales and purchase receipts, and previous FSA livestock program
                                documentation. Without beginning inventory proof, FSA had no
                                assurance that claimed losses were reasonable. In addition to verifying
                                the number of livestock deaths suffered, applicants also had to certify
                                to the location of the animals at the time of their death as well as that
                                these deaths occurred during the disaster period and were a direct result
                                of an applicable hurricane.

                                Before approving LIP applications, the county committee (COC) and
                                county executive director (CED) were to ensure that all eligibility
                                requirements had been met. For example, COCs and CEDs determined
                                if all supporting documents had been submitted, if claimed livestock
                                deaths were reasonable, if beginning inventory was verifiable, and if
                                third-party certifiers provided all necessary information. Applications
                                submitted by applicants claiming to have lost everything, including
                                livestock records, as a result of an applicable hurricane were to be
                                elevated to FSA’s national office for its review and determination.

                                FSA then calculated program payments by multiplying the national
                                payment rate established for each livestock kind/type/weight range by
                                the number of eligible livestock claimed by an applicant. Separate
                                payment rates were established for livestock owners and contract
                                growers. The payment rate for eligible livestock owners was 75 percent
                                of the average fair market value of the livestock. For contract growers,
                                the rate was 75 percent of the average income loss sustained by the
                                grower with respect to the dead livestock.

Objectives                      Our objective was to evaluate the effectiveness of FSA’s program
                                delivery of LIP and FIP and the adequacy of its management controls
                                to ensure program integrity. Specifically, we assessed FSA’s controls
                                for processing and approving LIP and FIP applications to determine if
                                they adequately protected the program against fraud, waste, and abuse.




9
  FSA Handbook 4-DAP (Revision 1), “Livestock Programs,” subparagraph 451 F “Proof and Reasonableness of Livestock Inventory”
(Amendment 19, dated August 16, 2006).

USDA/OIG-A/03601-23-KC                                                                                             Page 3
Findings and Recommendations
Section 1   Unsupported LIP Payments

                   FSA personnel worked diligently to provide almost $22.3 million in
                   LIP payments to 1,633 applicants who suffered significant
                   storm related livestock losses, and over $4.8 million to 4,237 applicants
                   for FIP, even though local FSA personnel were overwhelmed by efforts
                   to administer numerous USDA disaster related programs almost
                   simultaneously and often with limited staff.

                   While FSA effectively administered many aspects of LIP, some
                   procedures need improvement to strengthen the integrity of the
                   program. First, many applicants did not have proof of death
                   documentation and relied on third-party certifications to substantiate
                   their livestock losses. On more than one-half of the LIP applications
                   reviewed either the third-party certifications did not have sufficient
                   information concerning the number or type of livestock that perished or
                   the cause of death and/or applicants stated beginning inventories were
                   not supported by verifiable documentation.



Finding 1          Third-Party Certifications Did Not Support Claimed Losses

                   Many producers in hurricane-ravaged counties lost not only their
                   livestock, but their homes and other possessions as well. In the
                   immediate aftermath, producers in many coastal areas simply found
                   their livestock had vanished due to the powerful tidal surges. Other
                   producers, focusing on storm clean up, disposed of deceased farm
                   animals without obtaining any documentation of their livestock losses.
                   Factors such as these left relatively few producers with actual proof of
                   death documentation; therefore, a large number of them relied on
                   third-party certifications as their only means to apply for LIP benefits.
                   Our fieldwork showed that 97 of the 115 LIP applications reviewed, or
                   almost $2.6 million of the $2.7 million in program payments, relied on
                   third-party certifications.

                   In order to receive LIP benefits using the third-party certification
                   process, FSA required applicants to provide two vital pieces of
                   information. First, the applicant needed to provide written, signed, and
                   dated statements from third-parties that included specific details, such
                   as number and type of perished livestock, affiliation to the applicant,
                   and how the third-party had knowledge of the animals’ death. Second,
                   applicants using third-party certifications needed to provide FSA with

USDA/OIG-A/03601-23-KC                                                              Page 4
                                 verifiable evidence, 10 such as veterinary or bank records, which
                                 reasonably supported their beginning inventory prior to the hurricanes.
                                 However, we found that 53 of 97 LIP applications had third-party
                                 certifications that did not include the number, type, and/or cause of
                                 death, or were missing verifiable information concerning the beginning
                                 inventories. County/parish FSA office personnel approved
                                 53 applications without following program procedures that specified
                                 third-party certification requirements because (1) FSA office personnel
                                 knew that verifiable beginning livestock inventory records were not
                                 available from the applicants due to the hurricane(s), (2) the smaller
                                 operations only had documentation that was considered unverifiable by
                                 FSA, 11 and/or (3) FSA office personnel were aware of the applicant’s
                                 livestock operations and inventory. As result, FSA issued unsupported
                                 or inadequately supported LIP payments totaling almost $922,347. 12

                                 Applicants Submitted Incomplete Third-Party Certifications to Support
                                 Claimed Livestock Losses

                                 In order to approve LIP applications based on third-party certifications,
                                 the COC must be satisfied with the applicant’s livestock inventory
                                 documentation. If the applicant provided inaccurate or unreasonable
                                 supporting documentation, the COC or CED should disapprove the LIP
                                 application. However, we found that FSA county offices did not
                                 disapprove 9 of 97 LIP applications even though third-party
                                 certifications were not properly signed, dated, and/or detailed in their
                                 accounts of claimed livestock losses.

                                The following is an example of an insufficient third-party certification.
                                The veterinarian’s certification provides that, “[the veterinarian] treated
                                and dispensed medication for cows and calves post Katrina for [the
                                producer]. Mastitis and heat stress related pneumonia was common in
                                September after Katrina”:




10
   FSA Handbook 4-DAP (Revision 1), “Livestock Programs,” subparagraphs 451 E “Third Party Certifications” and 451 F “Proof and
Reasonableness of Livestock Inventory” (Amendments 18 and 19, dated May 23 and August 16, 2006, respectively).
11
   Unverifiable evidence would include an applicant’s hand written notes on a calendar, notebook, etc.
12
   $61,376 of this amount is also included in Finding 5 (see exhibit A).

USDA/OIG-A/03601-23-KC                                                                                              Page 5
                   (OIG redacted this copy of the document to prevent the publishing of private information.)


                   This third-party certification from a veterinarian does not provide the
                   kind, type, or number of livestock deaths. It only states that the
                   veterinarian “treated and dispensed medication for cows and calves
                   post Katrina” for the applicant.

                   We also identified the following additional weaknesses with third-party
                   certifications:

                         •    In Florida, four applicants did not provide specific details on
                              how their livestock perished; rather, the third-party
                              certifications only showed that the livestock died during the
                              timeframe of the disaster period. We interviewed the
                              third-party certifiers and were able to ascertain more specific
                              details on the conditions (i.e., flying debris, mud, storm stress,
                              etc.) that may have been factors in the deaths of the animals but
                              not the cause of death for each animal claimed.

                         •    In Louisiana, two applicants’ third-party certifications
                              “acknowledged” or “verified” the livestock losses, but did not
                              show how the livestock died or how the third-party knew the
                              animals died. Another producer’s LIP application was
                              approved based on a partial fax of a third-party certification
                              that did not include the number of dead livestock.

                         •    In Mississippi, one applicant prepared his own third-party
                              certification stating that he had no other proof of loss other
                              than his neighbor’s signature and word. The neighbor signed
                              the certification attesting to the livestock loss.




USDA/OIG-A/03601-23-KC                                                                                          Page 6
                                    Applicants Submitted Inadequate or No Beginning Inventory
                                    Documentation

                                    Program procedures required that applicants needed proof of their
                                    livestock beginning inventory as well as verifiable evidence, such as
                                    veterinary or bank records that would reasonably support their
                                    certification. Our review showed that 46 of 97 third-party certifications
                                    sampled did not provide verifiable evidence to support the beginning
                                    inventory certification. 13 Of the 46 applicants without beginning
                                    inventory support, 24 of them told us either they did not have
                                    documentation to support their beginning inventory or their inventory
                                    records were lost as a result of the hurricane(s). The FSA national
                                    office verbally advised State office personnel during training to forward
                                    to the national office any applications submitted by applicants that
                                    could not provide any beginning inventory documentation due to the
                                    effects of the hurricanes. However, local FSA personnel stated that they
                                    were not informed of this requirement.

                                    For the approved LIP applications described below, applicants did not
                                    have verifiable evidence to support their beginning inventories:

                                           •    In Plaquemines Parish, we found two applications included
                                                unsupported handwritten beginning inventories. One LIP
                                                application was approved by local FSA office personnel for
                                                payment based on the applicant’s written beginning inventory
                                                and a statement that his records were lost as a result of the
                                                hurricane. Another LIP applicant provided a piece of paper
                                                representing his claimed beginning inventory and an Internal
                                                Revenue Service’s Schedule F (Form 1040), “Profit or Loss
                                                For Farming.” However, the Schedule F did not show any
                                                livestock inventory support for the claimed beginning
                                                inventory. The CED stated that both applications were
                                                approved based on common knowledge that the applicants
                                                raised the livestock. No verifiable proof of inventory was
                                                provided for either application.

                                           •    Four Vermillion Parish applicants did not have evidence of
                                                beginning inventories. Three of them claimed they did not have
                                                a beginning inventory because they inherited the livestock and
                                                did not have any documentation to support a beginning
                                                inventory. All three claimed they lost their entire inventory as a
                                                result of the hurricane. Further review by OIG and FSA
                                                personnel showed that two of the three applicants sold
                                                livestock after the hurricane. The two applicants stated that

13
   Two applicants were identified as having problems with both the third-party statement and their beginning inventory documentation (9 plus
46 equals 55 minus 2 equals 53). The two applicants and their corresponding LIP payments were only counted once.

USDA/OIG-A/03601-23-KC                                                                                                          Page 7
                             they mistakenly certified to their losses but not their beginning
                             inventories. The FSA parish office reduced one applicant’s
                             payment and requested repayment from the other. The COC
                             determined the third applicant’s application was accurate. The
                             fourth applicant self-certified a beginning inventory that
                             included, in part, eight bulls. The applicant claimed loss of all
                             eight bulls. However, sales receipts provided by the applicant
                             showed two bulls were sold after the hurricane. The county
                             office approved the application for the loss of eight bulls, even
                             though evidence showed the loss of six bulls. The applicant
                             stated that the beginning inventory should have been ten bulls.

                             Parish office officials stated these four applications were
                             approved without adequate or verifiable support for beginning
                             inventory because the disaster programs caused extra workload
                             for the staff and they did not have time to thoroughly review
                             the documentation. In addition, the four applicants were related
                             to a COC member who “vouched” for their cattle operations
                             since they did not have information to support the beginning
                             inventories.

                         •   In the four Mississippi counties visited, 40 of the approved LIP
                             applications reviewed used the third-party certification process.
                             The third-party certification process requires the applicant to
                             establish a beginning inventory. For 39 of these applications,
                             we found that the applicants used their 2005 FIP records for
                             their beginning inventory. However, the 2005 FIP records had
                             not been subject to spot check and were not considered
                             verifiable documentation by the FSA national office.

                   We discussed the documentation problems related to third-party
                   certifications with FSA State office personnel who agreed with our
                   findings. Because many applicants did not have proof of loss
                   documentation needed to support their livestock losses, FSA State
                   office personnel believed the third-party certification process was an
                   effective alternative. However, FSA State office personnel commented
                   that the process needs improving. One FSA State office representative
                   suggested that the use of a standardized form to collect the required
                   information from the third-party would help alleviate confusion among
                   the applicant and the third-party certifier.

                   We concluded that FSA needs to take steps to improve the third-party
                   certification process. Specifically, improve the process to document the
                   third-party information about the number, type/kind, and knowledge of
                   the cause(s) of death of the livestock and the applicant’s verifiable
                   information concerning the beginning inventory. Without the number

USDA/OIG-A/03601-23-KC                                                                Page 8
                   and type of livestock losses, specific details concerning the loss of
                   livestock and documentation to reasonably support beginning
                   inventories, FSA will not be able to perform meaningful spot checks,
                   thereby undermining the integrity of the LIP program.

Recommendation 1
                   For future programs, ensure that applications using third-party
                   certification as support for losses clearly identify what is required from
                   the applicants and third-party certifiers to clearly substantiate the
                   applicants’ claimed losses.

                   FSA Response

                   FSA will ensure that future program regulations and handbook
                   procedure clearly substantiate the applicant’s claimed livestock losses.
                   FSA will develop a standardized form to collect the required
                   information from the applicant and third party when this is the only
                   method by which an applicant can substantiate livestock losses.

                   OIG Position

                   We accept FSA’s management decision.

Recommendation 2
                   For future programs, ensure that program requirements relating to the
                   absence of verifiable evidence for beginning inventories are clearly
                   stated in policy and procedures and on the program application.

                   FSA Response

                   FSA will ensure that future program regulations and handbook
                   procedure clearly define program requirements relating to the absence
                   of verifiable evidence for beginning inventory.

                   OIG Position

                   We accept FSA’s management decision.

Recommendation 3
                   Identify all applications that relied on third-party certifications and
                   determine if the third-party statements and/or beginning inventory
                   documentation omitted from the application met program requirements.




USDA/OIG-A/03601-23-KC                                                               Page 9
                                        FSA Response

                                        The applicable FSA county offices in Florida, Louisiana, and
                                        Mississippi will be instructed to identify all applicants that relied on
                                        third-party certifications and determine if the third-party statements
                                        and/or beginning inventory documentation omitted from the
                                        applications meet program requirements. This review will be completed
                                        by April 1. 14

                                        OIG Position

                                        We accept FSA’s management decision.

Recommendation 4
                                        For each application for which it is determined (under
                                        Recommendation 3) that the third-party statements and/or beginning
                                        inventory documentation omitted from the application did not meet
                                        program requirements, recover resultant overpayments.

                                        FSA Response

                                        County offices will be instructed to recover resultant overpayments for
                                        each application for which it is determined (under Recommendation 3)
                                        that the third-party statements and/or beginning inventory
                                        documentation omitted from the application did not meet program
                                        requirements. County offices shall initiate debt collection measures by
                                        May 1, unless the finality rule is applicable.

                                        OIG Position

                                        We concur with FSA’s proposed corrective actions. To reach
                                        management decision, we need to be provided documentation for each
                                        overpayment showing that a bill for collection has been sent and the
                                        amount entered as a receivable in the agency’s accounting records, or
                                        evidence that the overpayment has been collected. If the finality rule is
                                        applicable, we need documentation supporting the decision and the
                                        appropriate approval authority.


Finding 2                               Questionable Beginning Livestock Inventory Documentation

                                        Six of 63 applicants reviewed in Cameron Parish had beginning
                                        inventories based on questionable livestock vaccine receipts that were
                                        out of sequence or could not be substantiated with vendor records. Four
                                        of the six applicants used standardized receipts that were manually

14
     We confirmed with FSA that the applicable year for all dates provided in its response was 2009.

USDA/OIG-A/03601-23-KC                                                                                 Page 10
                   completed and dated in a manner that did not correspond with the
                   receipt sequence number. Two others used completely handwritten
                   receipts that were not numbered and could not be verified with vendor
                   records. We questioned all six of these LIP payments totaling
                   $427,276. The Office of Inspector General - Investigations (OIG-I)
                   opened an investigation related to the documentation supporting
                   livestock losses for LIP during our audit, and we suspended the audit
                   work related to these applicants due to their ongoing investigations.

                   LIP procedures allowed applicants to obtain a certification from a third
                   party to establish their livestock losses. To improve program integrity,
                   applicants using third-party certification must also provide verifiable
                   documentation to reasonably support their livestock inventory at the
                   time the deaths occurred.

                   Four of the six applicants provided vaccine receipts from one vendor to
                   support their beginning inventory. Review of these receipts showed
                   irregularities between the dates and the sequence numbering. For
                   example, the receipts were in close order sequentially, yet there were
                   long periods between the dates of purchases (see receipts 6450, 6451,
                   and 6457 in the table below). Applicants B and C provided receipt
                   number 6450 and 6451, dated September 4, 2004, and April 8, 2005,
                   respectively. Applicants F and G provided receipt number 6457, dated
                   August 13, 2004, which was prior to applicants B and C receiving
                   receipt number 6450, dated September 4, 2004.


                                                     Receipt
                    Applicants                       Number             Receipt Date
                                                      6376                4/10/2004
                                                      6450                 9/4/2004
                    B and C
                                                      9673                 9/4/2005
                                                      6451                 4/8/2005
                                                      6457                8/13/2004
                    F and G
                                                      41861               7/29/2004

                   We also identified two applicants who provided handwritten receipts
                   with no numbering system to support their beginning inventory. The
                   two applicants (H and I) were part of a family (at least five members)
                   with several different cattle operations. The vendor stated that one of
                   the family members purchased vaccine for all of the family’s cattle
                   operations (including H and I) and the vendor supplied separate
                   receipts to each family member. FSA requested that OIG-I investigate
                   the LIP claims of four of the family members. OIG-I accepted the
                   referral for investigation.


USDA/OIG-A/03601-23-KC                                                            Page 11
                   Due to the pending investigations of the questionable invoices, OIG-I
                   requested that we conclude our review of these applications. FSA will
                   need to coordinate corrective actions based upon the outcome of these
                   investigations.

Recommendation 5
                   In coordination with OIG-I, recover overpayments related to the
                   six cases involving questionable beginning livestock inventories.

                   FSA Response

                   The Louisiana State FSA Office will be instructed to coordinate
                   corrective actions, including recovering overpayments, with OIG-I
                   based upon the outcome of the investigations of the six cases involving
                   questionable beginning livestock inventories in Cameron Parish. The
                   Louisiana State FSA Office will instruct the Cameron Parish FSA
                   Office to initiate collection measures to recover any overpayments
                   identified by OIG-I; no later than 30 calendar days after OIG-I notifies
                   the Louisiana State FSA Office of the outcome of its investigations into
                   the six cases involving questionable beginning livestock inventories.

                   OIG Position

                   We concur with FSA’s proposed actions. To reach management
                   decision, at the completion of the OIG investigations, we need to be
                   provided documentation for each overpayment showing that a bill for
                   collection has been sent and the amount entered as a receivable in the
                   agency’s accounting records, or evidence that the overpayment has
                   been collected.




Finding 3          Claimed Livestock Losses Exceeded Beginning Inventory

                   In Vermillion Parish, Louisiana, 3 of the 30 applications reviewed
                   claimed livestock losses in excess of their beginning inventory. FSA
                   office employees stated they did not have enough time to perform their
                   regular duties and determine the accuracy of the documentation
                   supporting the claimed livestock losses. As a result, the applicants
                   received overpayments totaling about $117,000.

                   Our review showed that three applicants, J, K, and L made 2005 LIP
                   livestock loss claims using third-party certifications that were in excess
                   of their beginning inventories.



USDA/OIG-A/03601-23-KC                                                             Page 12
                   Applicants J and K showed they each had a 50-percent share in
                   ownership of 322 head of livestock and claimed hurricane-related
                   losses of 214 head of livestock. However, sales documentation showed
                   they sold 166 head of their livestock after the hurricane. We concluded
                   that the livestock losses and sales exceeded their beginning inventory
                   by 58 head, resulting in excessive 2005 LIP payments totaling over
                   $23,000.

                   Applicant J also individually claimed 100-percent share of 133 head of
                   livestock (in addition to the 322 head of livestock previously claimed).
                   The applicant claimed a loss of 110 of the 133 head of livestock. The
                   applicant did not provide FSA any additional documentation for the
                   beginning inventory. The applicant provided records showing the sale
                   of 28 head of cattle after the hurricane. Our review also showed the
                   applicant claimed a beginning inventory of one bull and the death of
                   one bull due to the hurricane; however, sales receipts provided by the
                   applicant showed the sale of two bulls after the hurricane. Based on the
                   lack of documentation and inconsistencies with the claimed inventory
                   and sales documentation, we question the entire LIP payment of
                   $67,158 for the claimed loss of 110 head of livestock.

                   Applicant L claimed 100-percent share ownership of 44 head of
                   livestock and that all of the livestock perished as a result of the
                   hurricane. The applicant provided a third-party statement supporting
                   the loss; however, the applicant did not provide any documentation for
                   the beginning inventory of 44 head of livestock. Without support for
                   the beginning inventory, we questioned the entire payment of
                   $26,336 in LIP benefits.

                   We referred all three applicants to OIG-I, and their investigation
                   showed that FSA did not review sales and inventory records and that
                   one of the applicant’s health may have been part of the reason(s) for the
                   discrepancies. The investigation results were presented to the Assistant
                   United States Attorney (AUSA) who declined to prosecute. Although
                   the AUSA did not prosecute the case, OIG-I communicated to the
                   Louisiana State FSA Office that the FSA local office employees did not
                   properly analyze sales records and livestock inventory when
                   determining the LIP payment amounts. We believe that local FSA
                   officials and the COC should have reconciled the three applicant’s sales
                   and inventory records prior to issuing the LIP payments. Therefore,
                   local FSA officials need to review and analyze the supporting
                   documentation for the cited applicants and establish the number of
                   livestock lost due to the hurricane and determine the correct LIP
                   payment.



USDA/OIG-A/03601-23-KC                                                            Page 13
Recommendation 6
                        Review the LIP applications and supporting documents for applicants
                        J, K, and L, and establish the number of livestock lost due to the
                        hurricane.

                        FSA Response

                        The Vermillion Parish FSA Office will be instructed to review the LIP
                        applications and supporting documentation for applicants J, K, and L
                        and establish the eligible number of livestock lost due to the hurricane
                        by April 1. 15

                        OIG Position

                        We accept FSA’s management decision.

Recommendation 7
                        For each application filed by J, K, or L for which it is determined
                        (under Recommendation 6) that the numbers of livestock lost due to the
                        hurricane are less than the numbers on which payment was based,
                        recover resultant overpayments.

                        FSA Response

                        The Vermillion Parish FSA Office will be instructed to recover
                        resultant overpayments for each application filed by applicants J, K,
                        and L for which it is determined (under Recommendation 6) that the
                        number of livestock lost due to the hurricane are less than the numbers
                        on which payment was based. Vermillion Parish FSA Office shall
                        initiate debt collection measures by May 1. 16

                        OIG Position

                        We concur with FSA’s proposed actions. To reach management
                        decision, we need to be provided documentation for each overpayment
                        showing that a bill for collection has been sent and the amount entered
                        as a receivable in the agency’s accounting records, or evidence that the
                        overpayment has been collected.




15
     See footnote 14.
16
     See footnote 14.
USDA/OIG-A/03601-23-KC                                                                 Page 14
Section 2            Farm Operating Plans

Finding 4                           Farm Operating Plans Were Improperly Changed to Increase
                                    Program Payments

                                    Our review of seven entities in Plaquemines Parish, Louisiana, to
                                    assess the propriety of LIP payments, disclosed that two entities
                                    improperly increased the number of persons eligible for LIP payments.
                                    The entities were allowed by FSA parish personnel to submit revised
                                    Farm Operating Plans for the 2005 crop year in 2006. 17 The CED cited
                                    the timing of LIP, inexperience in payment limitation issues, and an
                                    extreme workload as the contributing factors for allowing the two
                                    entities to increase the number of persons eligible for LIP payments in
                                    2006 for the 2005 crop year. As a result, the entities received
                                    questionable 2005 LIP payments totaling $400,000.

                                    In order to participate in LIP, applicants must have completed a Farm
                                    Operating Plan. FSA uses Farm Operating Plans to determine the
                                    number of “persons” in the farming operation who are eligible to
                                    receive program payments up to the established ($80,000) limit per
                                    “person.” The local FSA COC reviews the submitted information and
                                    sends the producer a “person” determination letter to inform them of
                                    the number of “persons” eligible for payment limitation purposes. In
                                    doing this, FSA establishes a payment limitation or a maximum dollar
                                    amount that each “person” associated with the farming operation can
                                    receive. Once a farming operation has established its “person(s)” for
                                    payment limitation purposes for a crop year, the entity must operate as
                                    such for the entire crop year, unless significant changes occur to the
                                    entity during that time. According to FSA procedures, when an
                                    applicant has already received a person determination for previous
                                    2005 program purposes, the applicant should use the same “person”
                                    determination for 2005 LIP purposes. 18

                                    The Plaquemines Parish CED stated that the two entities, Entities A
                                    and B, were allowed to change their 2005 Farm Operating Plans for
                                    several reasons. First, the sign up for the 2005 LIP started in late
                                    May 2006, and the CED said they did not think about reviewing
                                    2005 USDA program payments before revising 2005 Farm Operating
                                    Plans. Second, the parish FSA office staff had very little experience
                                    handling payment limitation issues. Lastly, the CED indicated that an
                                    excessive workload with limited staff trying to simultaneously
                                    administer several hurricane-related disaster programs contributed to
                                    the problem.
17
   In a similar instance, the State office declined an applicant’s request to submit a revised Farm Operating Plan to increase the number of
“persons” eligible for LIP payments because the applicant had previously received a 2005 Direct and Countercyclical Program payment.
18
    FSA Handbook 4-DAP (Revision 1), “Livestock Programs,” subparagraph 423 B “Payment Limitation” (Amendment 15, dated
April 13, 2006).

USDA/OIG-A/03601-23-KC                                                                                                         Page 15
                                        Entity A Changed from a One “Person” Entity to a Four “Person”
                                        General Partnership

                                        For program years 2000 through 2002, Entity A operated as a general
                                        partnership between two brothers according to their Farm Operating
                                        Plan. The brothers submitted a partnership agreement stating they
                                        would operate as Entity A with all income and expenses split equally
                                        between them. In 2003, the brothers submitted a revised Farm
                                        Operating Plan that represented Entity A as a one “person” Limited
                                        Liability Corporation (LLC). The members of the LLC submitted tax
                                        records to support the claim they operated as a LLC. Entity A
                                        continued to represent itself as a one “person” LLC when it applied for
                                        the 2005 Non-Insured Crop Disaster Assistance Program (NAP) and
                                        Emergency Conservation Program (ECP) at the FSA offices in
                                        Plaquemines and St. Tammany Parishes, respectively, and received
                                        over $55,000 in payments.

                                        In June 2006, on the same day Entity A applied for hurricane related
                                        LIP, the brothers submitted a revised 2005 Farm Operating Plan to the
                                        Plaquemines Parish FSA Office showing they operated as a four
                                        “person” general partnership comprised of the two brothers and their
                                        spouses. Entity A’s CPA firm faxed a letter to the FSA office stating
                                        that Entity A was not legally registered with the Louisiana Secretary of
                                        State as a LLC. 19 The CED confirmed through the Secretary of State’s
                                        website that Entity A was not listed as a LLC. The CED concluded that
                                        since Entity A was not legally a LLC, the brothers could change their
                                        2005 Farm Operating Plan to show they operated as a four-member
                                        partnership. This increased the number of “persons” eligible for
                                        payment from one “person” to four “persons.” The Plaquemines Parish
                                        COC then approved the revised Farm Operating Plan and issued
                                        $320,000 (4 times $80,000) in LIP benefits to Entity A. We concluded
                                        Entity A misrepresented its operation and should be required to refund
                                        $320,000 in LIP payments.

                                        The applicants stated that although their spouses were never included
                                        on any of the prior Farm Operating Plans, the spouses have always
                                        been a part of the cattle operations. The applicants also stated that FSA
                                        completed the Farm Operating Plans, and they merely signed the forms
                                        as instructed by FSA personnel. However, they certified that all
                                        information entered on the Farm Operating Plans showing they were a
                                        LLC was true and correct and that they understood furnishing incorrect
                                        information would result in forfeiture of payments and the assessment
                                        of a penalty.



19
     Louisiana Secretary of State personnel stated that Entity A could be operating as an unregistered LLC.

USDA/OIG-A/03601-23-KC                                                                                        Page 16
                                     We requested that FSA Louisiana State Committee (STC) make a
                                     determination on the appropriate “person” determination for Entity A.
                                     In its April 9, 2008, meeting, the STC determined that the previous
                                     form CCC-502s were filed in error because the operation was carried
                                     out as a general partnership (a four-person joint operation), rather than
                                     a limited liability company. STC cited a memo from the national office
                                     advising FSA field offices to accept new form CCC-502s if applicants
                                     can substantiate that they operate their land as husband and wife. Entity
                                     A’s change in operation was substantiated, in part, by a change made to
                                     IRS form 1065, Schedule B, which showed they were a “domestic
                                     general partnership” and had filed joint tax returns in previous years.
                                     The STC noted that Louisiana is a community property State, and each
                                     spouse is entitled to a 25 percent share of the partnership’s income and
                                     losses. The STC also determined that the ECP and NAP applications
                                     and payments are incorrect and must be refunded. It further noted that
                                     records in the Louisiana Secretary of State’s office reflected no changes
                                     from a general partnership to a limited liability company.

                                     We do not concur with STC’s determination that the entity operated as
                                     a four-person joint operation. First, the entity had previously certified
                                     that all information was true and correct when it signed the Farm
                                     Operating Plans in 2003 and 2005 as a LLC, and in 2005 when it
                                     provided tax records to support the claim that it operated as a LLC.
                                     Second, making a change to a tax form to show a change in operation
                                     does not ensure that the entity amended its tax returns, and the STC did
                                     not document how it ascertained the revised documents were submitted
                                     to the IRS. A change to a tax document would not substantiate that the
                                     entity operated as a general partnership. Third, the STC cited a memo
                                     from the FSA national office that purportedly advised the Louisiana
                                     FSA State Office to allow changes to Farm Operating Plans under
                                     certain circumstances. We do not believe the memo was intended as an
                                     authorization to make changes. Rather, the memo is an
                                     acknowledgement of wording to be used to allow changes in Farm
                                     Operating Plans if certain conditions are met. We believe the STC
                                     determination is in error and that the case should be reviewed by the
                                     Deputy Administrator for Farm Programs (DAFP) for a final
                                     determination.

                                     Entity B Changed from One “Person” to Two “Persons” for Payment
                                     by Adding the Applicant’s Spouse to the 2005 Farm Operating Plan

                                     Entity B, a COC member, indicated he operated as one “person” on his
                                     2000 Farm Operating Plan and received 2005 NAP and HIP payments
                                     of about $3,100. 20 In July 2006, after the 2005 LIP was announced,

20
   The producer certified that all information on the Farm Operating Plan was true and correct and furnishing incorrect information would result
in forfeiture of payments and the assessment of a penalty.

USDA/OIG-A/03601-23-KC                                                                                                            Page 17
                   Entity B and the spouse submitted a new Farm Operating Plan
                   indicating that they were equal partners in the operation and applied for
                   LIP benefits totaling $160,000 (two times $80,000). The applicant
                   stated that the spouse had contributed to the farm operations from the
                   beginning, even though the applicant was determined one “person” for
                   payment purposes. We believe that because Entity B previously
                   collected program payments as one “person,” the entity should be
                   limited to one $80,000 LIP payment and refund $80,000 in unearned
                   LIP payments.

                   We also requested that FSA Louisiana STC make a determination on
                   the appropriate “person” determination for Entity B. In its
                   April 9, 2008, meeting, STC determined that the Farm Operating Plans
                   filed for the operations were correct. Specifically, STC determined that
                   two separate operations existed and one of the operations, a husband
                   and wife general partnership, qualified for two payments totaling
                   $160,000 in 2005 LIP benefits. The second operation, an individual,
                   qualified for 2005 NAP, ECP, and HIP. STC based the general
                   partnership operation determination on the joint purchase of a cattle
                   herd in 1988 and the husband and wife’s jointly filed income taxes over
                   the course of 22 years. STC based the individual determination on
                   individual ownership of land. The Office of the General Counsel
                   (OGC) reviewed the land ownership issue and argued that because the
                   real estate was owned separately by the individual, it would have been
                   improper to include the spouse on the ECP application as land owner,
                   since the spouse had no interest in the real estate.

                   We do not concur with STC’s determination of two operations. First,
                   the two entities were not operated in a separate and distinct manner
                   because the individual operation received NAP and ECP payments on
                   land owned/operated by the husband and wife general partnership
                   operation. Therefore, the two operations did not maintain separate and
                   distinct farming operations necessary for separate person
                   determinations. Second, the form CCC-502 submitted in July 2006 for
                   the general partnership shows a 50/50 share in the joint operation but
                   does not show that the land was contributed by the individual operation
                   as OGC argued (i.e., the spouse did not have an interest in the land).
                   Third, we do not believe that filing joint tax returns represents how the
                   farming operation was conducted. We believe the producer and spouse
                   should be combined as one person for payment limitation purposes.

                   We believe that both STC determinations are in error and should be
                   reviewed by DAFP for a final determination.




USDA/OIG-A/03601-23-KC                                                            Page 18
Recommendation 8
                    For Entities A and B, have the DAFP make a final “person”
                    determination.

                    FSA Response

                    The Louisiana State FSA Committee requested relief authority for
                    acceptance of revised Farm Operating Plans for A and B. The
                    acceptance of such Farm Operating Plans would allow the recognition
                    of the increase in the number of “persons” 2005 payment limitation
                    purposes in both operations. These requests for relief for A and B were
                    both denied. These denials of relief affirmed the “person”
                    determinations previously made and of record for A and B for
                    2005 payment limitation purposes.

                    OIG Position

                    We accept FSA’s management decision.

Recommendation 9
                    For each case (Entity A and/or B) for which it is determined (under
                    Recommendation 8) that the STC “person” determination was in error,
                    recover any resultant improper payments.

                    FSA Response

                    The Louisiana State FSA Committee determined that information
                    provided and actions of both Entity A and Entity B supported the
                    increase in “persons” as represented and subsequently used as the basis
                    for the approval and issuance of 2005 LIP payments. The nature and
                    extent of any followup actions by the FSA national office has not been
                    fully decided at this time. However, complete details and results of
                    followup review and actions will be provided when concluded.

                    OIG Position

                    To reach management decision, we need to be provided documentation
                    of the actions taken by the DAFP and, for each overpayment,
                    documentation showing that a bill for collection has been sent and the
                    amount entered as a receivable in the agency’s accounting records, or
                    evidence that the overpayment has been collected. We also need
                    expected timeframes for completion.

Recommendation 10
                    Assemble an independent team under the direction of the Louisiana
                    STC and have that team review the propriety of other Louisiana cases

USDA/OIG-A/03601-23-KC                                                            Page 19
                    where applicants changed their Farm Operating Plans, effecting
                    increases in the numbers of “persons” eligible for payment under the
                    2005 LIP.

                    FSA Response

                    DAFP is currently reviewing different means and options by which to
                    identify recipients of 2005 LIP payments in these parishes that also had
                    a change recorded in the system reflecting of an increase in the number
                    of “persons” for 2005 payment limitation purposes. Once these
                    recipients are identified, a review of such cases will be initiated and
                    completed by the means available.

                    OIG Position

                    To reach management decision, we need to be provided documentation
                    showing the methodology used to identify changes to Farm Operating
                    Plans that increased the number of “persons” eligible for payments
                    under the 2005 LIP and the results of the reviews performed to
                    determine the propriety of changes that increased the number of
                    “persons” eligible for payment. We also need expected timeframes for
                    completion of these actions.

Recommendation 11
                    For each case for which it is determined (under Recommendation 10)
                    that the producers improperly changed their Farm Operating Plans and
                    increased the number of “persons” for 2005 LIP purposes, recover any
                    resultant improper payments.

                    FSA Response

                    Recovery will be initiated of any 2005 LIP benefits determined to be
                    issued in error as the result of improper changes and increases in the
                    number of “persons” for 2005 payment limitation purposes.

                    OIG Position

                    To reach management decision, we need documentation for each
                    overpayment identified by the review showing that a bill for collection
                    has been sent and the amount entered as a receivable in the agency’s
                    accounting records, or evidence that the overpayment has been
                    collected.




USDA/OIG-A/03601-23-KC                                                             Page 20
Section 3            Program Improvement

Finding 5                           Excessive Timeframe Allowed Claims for Livestock Losses
                                    Not Directly Related to the Disaster

                                    Disaster programs like LIP are intended to assist producers whose
                                    livestock losses are a direct result of a disaster event such as a
                                    hurricane, but not those attributed to normal mortality. However, FSA
                                    established timeframes that allowed producers to claim livestock losses
                                    that were not directly related to the hurricanes. As a result, in
                                    Okeechobee County, Florida, FSA paid over $61,000 21 on late term
                                    losses that may have resulted from natural mortality (i.e., old age,
                                    broken legs, calving problems, etc.) rather than the hurricanes.

                                    During the implementation of the disaster programs, FSA established a
                                    60-day period for attributing losses to hurricanes beginning with the
                                    date the hurricane made landfall. FSA based this timeframe on
                                    discussions with State FSA office personnel, extension service, and
                                    university agricultural professors. FSA national office officials also
                                    stated that producers in some areas of Louisiana struggled to find
                                    livestock weeks after they were struck by multiple hurricanes;
                                    therefore, the 60-day period seemed appropriate. However, we noted
                                    that in Florida some counties were only impacted by one hurricane, and
                                    the 60-day timeframe may have been excessive.

                                    In Okeechobee County, Florida, our analyses showed that 117 of 492
                                    (about 24 percent) cattle losses occurred 30 to 60 days after the
                                    hurricane made landfall. In comparison, in Louisiana 5,668 of the 5,747
                                    (about 98 percent), livestock deaths occurred within the first week of
                                    the applicable hurricane, and only six livestock losses occurred more
                                    than 30 days after the hurricane made landfall. 22

                                    Our review of six applicants 23 in Okeechobee County, Florida, showed
                                    that four of them claimed losses throughout the 60-day disaster period.
                                    The other two applicants generally attributed livestock losses to the
                                    hurricane for about the first week after the hurricane made landfall.24
                                    Applicants that claimed losses throughout the entire 60-day disaster
                                    period claimed that stress from the hurricanes aggravated or caused the
                                    animals’ deaths. However, we questioned whether deaths from
                                    conditions such as calving complications, digestive problems, or
                                    broken legs that occurred late in the 60-day disaster period could be

21
   The actual payments for the livestock losses occurring after 30 days were limited to $61,376 because two producers exceeded the payment
limitation.
22
   Our determinations were made based on the information supplied on the third-party certifications.
23
   The total LIP payments disbursed in Florida as of February 2007 was over $600,000 to a total of 47 applicants.
24
   One of the two applicants did claim the loss of one cow that died 35 days after the hurricane made landfall.

USDA/OIG-A/03601-23-KC                                                                                                       Page 21
                    attributed to the hurricanes. Other applicants stated that persistent wet
                    conditions that remained after the hurricane resulted in contaminated
                    water standing in pastures and wet feed also contributed to numerous
                    cattle losses.

                    We discussed this issue with officials from the FSA national office who
                    requested that the Florida State FSA Office direct the county office to
                    consult with local independent veterinarians regarding the cause of
                    death and gather additional details from the applicants to support their
                    livestock claims. Florida State FSA Office personnel concurred that
                    some of the losses appeared to include normal livestock mortality.
                    However, the officials indicated that they do not have the expertise
                    necessary to judge the propriety of livestock losses that occurred later
                    in the disaster period. Without extensive documentation to establish an
                    applicant’s normal monthly livestock mortality, the Florida State FSA
                    Office personnel stated they would have to rely on the COCs’
                    knowledge of the applicants and their operations to determine the
                    reasonableness of claimed livestock losses.

                    We believe that COCs are in a position to make reasonable
                    determinations by evaluating the available documentation of the
                    producers’ mortality losses prior and subsequent to the disaster with the
                    livestock losses claimed. We also believe that the longer the duration of
                    a designated disaster period, the less assurance FSA has that claimed
                    livestock losses are a direct result of an applicable disaster. By tailoring
                    future disaster periods based on the specific conditions experienced in
                    individual States or counties, FSA can better ensure that program
                    payments are only being delivered for specific disaster related losses.

Recommendation 12
                    For future programs, review the facts and circumstances regarding the
                    establishment of loss claim periods to ensure they correlate more
                    closely with local conditions related to the disaster so that losses
                    unrelated to disaster events can be identified and excluded.

                    FSA Response

                    FSA, for future programs, will review the facts and circumstances
                    regarding the establishment of loss clam periods to ensure they
                    correlate more closely with local conditions related to the disaster, so
                    that losses unrelated to disaster events can be identified and excluded.

                    OIG Position

                    We accept FSA’s management decision.


USDA/OIG-A/03601-23-KC                                                                Page 22
Recommendation 13
                        For each of the 47 LIP applications in Florida, identify those with
                        losses claimed to have occurred 30 to 60 days after the hurricane made
                        landfall and determine, in conjunction with appropriate local USDA
                        personnel, such as COC members and Animal and Plant Health
                        Inspection Service veterinarians, whether the claimed losses were
                        supported and were the result of the hurricane.

                        FSA Response

                        The Florida State FSA Office will be instructed to review the 47 LIP
                        applications, and identify those applications with losses claimed to
                        have occurred 30 to 60 days after the hurricane made landfall. The
                        State office will determine in conjunction with appropriate local USDA
                        personnel such as COC members and Animal and Plant Health
                        Inspection Service veterinarians, whether the claimed losses were
                        supported and were the direct result of the hurricane. The reviews shall
                        be completed and determinations made no later than April 1. 25

                        OIG Position

                        We accept FSA’s management decision.

Recommendation 14

                        For each of the Florida applications with losses claimed to have
                        occurred 30 to 60 days after the hurricane made landfall and for which
                        it is determined (under Recommendation 13) that such losses were
                        unsupported or were not the result of the hurricane, recover any
                        unsupported payments.

                        FSA Response

                        The applicable FSA county offices will be instructed to recover
                        unsupported payments for each application with losses claimed to have
                        occurred 30 to 60 days after the hurricane for which it is determined
                        and such losses were not supported, or were not the result of the
                        hurricane. Applicable county offices shall initiate debt collection
                        measures by May 1. 26

                        OIG Position

                        We concur with FSA’s proposed actions. To reach management
                        decision, we need to be provided documentation for each overpayment

25
     See footnote 14.
26
     See footnote 14.
USDA/OIG-A/03601-23-KC                                                                 Page 23
                   identified showing that a bill for collection has been sent and the
                   amount entered as a receivable in the agency’s accounting records, or
                   evidence that the overpayment has been collected.




USDA/OIG-A/03601-23-KC                                                         Page 24
Scope and Methodology
                                     Following hurricanes Dennis, Katrina, Ophelia, Rita, and Wilma in
                                     2005, FSA provided almost $22.3 million in LIP payments to
                                     1,633 applicants and over $4.8 million to 4,237 applicants for feed
                                     losses under the FIP.

                                     Our review assessed the controls established by FSA for processing and
                                     approving LIP and FIP applications to determine if they adequately
                                     protected the program against fraud, waste, and abuse. We performed
                                     fieldwork from July 2006 through April 2008. Our review was
                                     conducted at the FSA national office in Washington, D.C., as well as
                                     State and county/parish offices in Florida, Louisiana, and Mississippi.

                                     We performed fieldwork in Louisiana and Mississippi based on
                                     estimated program participation. Within each State, we selected and
                                     visited counties/parishes based on participation levels: Cameron,
                                     Plaquemines, Vermilion, and Washington Parishes in Louisiana and
                                     Jasper, Jones, Marion, and Walthall Counties in Mississippi. We also
                                     performed fieldwork in Levy and Okeechobee Counties in Florida,
                                     based on concerns from FSA national office officials.

                                     To accomplish our objective, we conducted our fieldwork in two
                                     phases. First, we conducted an in-depth review during FSA’s LIP and
                                     FIP program sign-up periods to assess the adequacy of FSA’s controls
                                     for processing and approving LIP and FIP applications. Second, we
                                     analyzed FSA program payment data for LIP and FIP.

                                     During Phase 1, we reviewed 115 LIP applications at 9 FSA county or
                                     parish offices representing $2,700,198, or about 12 percent of the total
                                     payments, and we reviewed a total of 137 FIP applications representing
                                     $663,412, or about 14 percent in benefits, in the 10 counties or
                                     parishes. 27

                                     During Phase 2, we judgmentally selected 87 LIP applications based on
                                     the criteria that each application shared either an address or account
                                     number with at least one other LIP application and the total benefits
                                     exceeded the $80,000 payment limitation. This review focused on the
                                     producers who were eligible to participate in LIP and exceeded the
                                     $80,000 payment limitation. We reviewed LIP and other FSA program
                                     documents; applicant’s farm folders, including the Farm Operating Plan
                                     and supporting documents; and interviewed FSA personnel, applicants,

27
   We visited 10 county offices for FIP compared to 9 for LIP because the Levy County FSA Office did not have any LIP applications at the time
of our review. We visited the Levy County FSA Office based upon concerns expressed to OIG by the FSA national office.

USDA/OIG-A/03601-23-KC                                                                                                           Page 25
                                       and others to determine the eligibility of applicants to receive LIP
                                       program benefits and evaluate FSA’s delivery of the LIP program.
                                       These applications represented $5,294,585 in LIP payments in three
                                       Louisiana FSA parish offices. 28

                                       In conducting our review, we performed the following steps:

                                  •    Reviewed laws, regulations, procedures, and program documents to
                                       verify and evaluate program implementation.

                                  •    Interviewed agency personnel responsible for the administration of LIP
                                       and FIP operations at the national, State, and field office levels
                                       (including FSA offices in Kansas City).

                                  •    Reviewed program documents and related evidence; interviewed FSA
                                       personnel, applicants, third-parties, and other interested parties; and
                                       performed farm visits to determine the accuracy and appropriateness of
                                       LIP and FIP claims.

                                  •    Reviewed 10 randomly selected applicants from all paid or approved
                                       LIP applications at a county/parish office; if the selected LIP applicant
                                       also had a FIP application, then the FIP application was also reviewed.
                                       If less than ten FIP applications were chosen as a result of our LIP
                                       selection, we randomly selected FIP applications to complete the
                                       10 samples. Second, we reviewed all the applications that FSA
                                       considered for mandatory spot checks, such as FSA employees, COC
                                       members, or State FSA office personnel. Lastly, we judgmentally
                                       selected up to five of the highest monetary value LIP and FIP
                                       applications and/or applications recommended by county office
                                       personnel for review.

                                       We conducted this performance audit in accordance with generally
                                       accepted government auditing standards. Those standards require that
                                       we plan and perform the audit to obtain sufficient, appropriate evidence
                                       to provide a reasonable basis for our findings and conclusions based on
                                       our audit objectives. We believe that the evidence obtained provides a
                                       reasonable basis for our findings and conclusions based on our audit
                                       objectives.




28
     Nine applicants receiving $536,826 in LIP benefits were included in both Phase One and Phase Two reviews.

USDA/OIG-A/03601-23-KC                                                                                           Page 26
Exhibit A – Summary of Monetary Results
                                                                                                   Exhibit A – Page 1 of 1


 Finding No        Recommendation                  Description                 Amount                Category
                                                                                                Unsupported Costs
                                             Inadequate third-                                  Recovery
       1                     4               party certification               $860,971*        Recommended
                                             Questionable                                       Questioned Costs
                                             beginning livestock                                Recovery
       2                     5               inventories                        $427,276        Recommended
                                                                                                Unsupported Costs
                                             Excessive claimed                                  Recovery
       3                     7               losses                             $116,788        Recommended
                                             Farm Operating                                     Questioned Costs
                                             Plans improperly                                   Recovery
       4                     9               changed                            $400,000        Recommended
                                             Excessive                                          Unsupported Costs
                                             timeframes for                                     Recovery
       5                    14               claimed losses                       $61,376       Recommended

    Total                                                                     $1,866,411
* The amount shown in the Finding 1 is $922,347 which includes $61,376 reported in finding 5. Therefore, the monetary result
for Finding 1 was reduced from $922,347 to $860,971.




USDA/OIG-A/03601-23-KC                                                                                          Page 27
Exhibit B – Agency Response
                              Page 1 of 13




USDA/OIG-A/03601-23-KC         Page 28
Exhibit B – Agency Response
                              Page 2 of 13




USDA/OIG-A/03601-23-KC         Page 29
Exhibit B – Agency Response
                              Page 3 of 13




USDA/OIG-A/03601-23-KC         Page 30
Exhibit B – Agency Response
                              Page 4 of 13




USDA/OIG-A/03601-23-KC         Page 31
Exhibit B – Agency Response
                              Page 5 of 13




USDA/OIG-A/03601-23-KC         Page 32
Exhibit B – Agency Response
                              Page 6 of 13




USDA/OIG-A/03601-23-KC         Page 33
Exhibit B – Agency Response
                              Page 7 of 13




USDA/OIG-A/03601-23-KC         Page 34
Exhibit B – Agency Response
                              Page 8 of 13




USDA/OIG-A/03601-23-KC         Page 35
Exhibit B – Agency Response
                              Page 9 of 13




USDA/OIG-A/03601-23-KC         Page 36
Exhibit B – Agency Response
                              Page 10 of 13




USDA/OIG-A/03601-23-KC           Page 37
Exhibit B – Agency Response
                              Page 11 of 13




USDA/OIG-A/03601-23-KC           Page 38
Exhibit B – Agency Response
                              Page 12 of 13




USDA/OIG-A/03601-23-KC           Page 39
Exhibit B – Agency Response
                              Page 13 of 13




USDA/OIG-A/03601-23-KC           Page 40
Informational copies of this report have been distributed to:

Administrator, FSA
   Attn: Agency Liaison Officer                                 (3)
Government Accountability Office                                (1)
Office of Management and Budget                                 (1)
Office of the Chief Financial Officer
   Director, Planning and Accountability Division               (1)
